 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




THE INDIAN HEALTH SERVICE EQUAL
   EMPLOYMENT OPPORTUNITY
      COMPLAINTS PROCESS

        A Management Review



                    JUNE GIBBS BROWN
                     Inspector General

                         JULY 2000
                       OEI-05-99-00290
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago office prepared this report under the direction of William C. Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Joe Penkrot, Project Leader                             Alan Levine, Program Specialist

Emily Melnick, Program Analyst

Ianna Kachoris, Program Analyst





        To obtain copies of this report, please call the Chicago Regional Office at 312-353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                EXECUTIVE                          SUMMARY

PURPOSE

     To conduct a management review of the Equal Employment Opportunity (EEO)
     complaint process of the Indian Health Service (IHS).

BACKGROUND

     The IHS Director requested that the Inspector General conduct an EEO management
     review including the following issues: timeliness, management practices, delegations of
     authority, conflict of interest, confidentiality, and training of EEO personnel at
     Headquarters and Area Offices.

     The Assistant Secretary for Management and Budget (ASMB) has departmental
     responsibility to provide technical assistance and policy guidance to the operating divisions
     (OPDIVS). The OPDIV EEO offices are responsible for “establishing and maintaining
     EEO programs” and processing EEO complaints. The ASMB has primary responsibility
     for preparing final agency decisions on formal EEO complaints.

     The IHS has delegated EEO responsibility for the Albuquerque, Nashville, Navajo, and
     Oklahoma City Area Offices and Headquarters West to the Oklahoma City Area Office.

     We reviewed EEO policies and procedures, complainant files, and any other available
     documentation relating to the six issues we evaluated. We compared the EEO process at
     the Area Offices, Service Units and both Headquarters to the standards established in EEO
     laws and regulations and by ASMB’s “EEO Complaints Processing Checklist.” In
     Headquarters East and Oklahoma City, we reviewed 31 formal complaint files closed in
     the last 2 years. We reviewed all 26 of the available informal complaint files closed in the
     last 2 years at Area Offices and Service Units. Using structured discussion guides, we
     interviewed a total of 223 respondents at Headquarters, Area Offices and Service Units.

FINDINGS

The IHS Operates under Four Conditions Which Complicate the EEO Complaints
Process: Indian Preference, Commissioned Corps, Tribal Contracting/
Compacting, and Downsizing

     Complaints involving the Commissioned Corps, Indian Preference or where tribal



             EEO AND IHS                       1                                     OEI-05-99-00290
      contracting has occurred, create confusion in the IHS EEO complaints process. These
      issues, as well as downsizing, impact the scope and structure of the EEO process.

Inconsistencies in the EEO System Result in Unequal Treatment of Complaints

      Significant differences in the structure and approaches to handling complaints result from
      the IHS decision to divide EEO responsibilities between Headquarters East and Oklahoma
      City. The delegation of authority has resulted in considerable differences regarding the
      acceptance of formal EEO complaints between Headquarters East and Oklahoma City.
      Inconsistencies also exist in IHS’ 12 Area Offices. The Area Directors make their own
      EEO staffing decisions, determining whether or not to have an on-site, full-time EEO
      manager and/or counselors.

The IHS EEO Program Lacks Direction, Potentially Weakening its Effectiveness

      The IHS has no systematic way of knowing whether their counselors or staff act
      appropriately on individual complaints. Neither the Headquarters East director nor the
      Oklahoma City EEO manager directly supervise EEO activities occurring in Area Offices
      or Service Units. There is a lack of uniformity in record keeping and retention, resulting
      in the inability to determine timeliness in the EEO complaint process.

      Management involvement in individual EEO complaints represents a conflict of interest
      and undermines confidentiality. In many cases, EEO staff, counselors, or others involved
      with EEO informal complaints routinely provide specific case information to the Area or
      Service Unit Director. Despite requirements that the EEO process be separate from
      personnel functions, we found IHS’ personnel office staff directly involved in the handling
      of EEO complaints in several Area Offices. Appearances of conflict of interest, even if
      inaccurate, raise questions about EEO’s impartiality.

      Many EEO staff and counselors believe that they need intermediate level or refresher
      training to advance or maintain their skills. Most EEO training is restricted to
      management staff.

      We found no evidence of any periodic self-evaluations by IHS of its own EEO process.

Employee Distrust of EEO Is Widespread Throughout IHS and Undermines
Effectiveness of the EEO Process

      There is widespread fear of reprisal among many IHS employees. Nearly two-thirds of the
      respondents, including some supervisory staff, indicated that they would not feel
      comfortable filing an EEO complaint. In addition, most IHS staff is unaware of IHS’
      upper management support of and commitment to EEO principles.



              EEO AND IHS                      2                                     OEI-05-99-00290
RECOMMENDATIONS

      In order to address the issues identified in this report, IHS should:

Address IHS-specific Issues Pertaining to Indian Preference, Commissioned
Corps, Tribal Compacting/contracting and Downsizing

Standardize the Handling of EEO Complaints

Improve Counselor Performance and Supervision

Standardize Complaint Reporting, Recording, and File Retention

Implement Policy Guidance on Confidentiality

Eliminate Conflicts of Interest and the Potential for Conflicts of Interest

Improve Communication and Expand EEO Training and Educational
Opportunities to All IHS Employees, EEO Staff and Counselors

Increase Employee Trust in the EEO Process

      We provide specific details on how these recommendations can be carried out in the
      recommendations section at the end of the report.


      In order to ensure proper oversight and accountability, we also recommend that ASMB
      should:

Perform a Follow-up Evaluation and Periodic Reviews on the Implementation of
the OIG Recommendations

AGENCY COMMENTS

      We received comments on the draft report from the Indian Health Service (IHS) and the
      Assistant Secretary for Management and Budget (ASMB). Both concur with the vast
      majority of our 10 recommendations and the 34 ways of achieving them. Where
      appropriate, we changed the report to reflect their comments. The full IHS and ASMB
      comments are contained in Appendix B.

      The IHS believes our recommendations “will provide opportunities for much needed
      improvement in the administration and management of the IHS EEO program.” The


              EEO AND IHS                       3                                OEI-05-99-00290
IHS’ actions to date include development of an EEO website, a Fact Sheet explaining
differences between Indian Preference and Title VII discriminatory practices, and new
EEO posters. We appreciate the cooperation of IHS in conducting this inspection and
look forward to working with IHS in the development of their action plan in response to
our recommendations.

Of the 34 ways of achieving the recommendations, IHS did not concur with the following
four:

The IHS does not concur with elevating EEO supervisory responsibilities to IHS
Headquarters. The IHS responded that they were unclear about the recommended
organizational location of upper management. To clarify, we are recommending that an
IHS upper manager at Headquarters provide management supervision (line authority) to
both the EEO Director in Headquarters East and the EEO manager in Oklahoma City to
provide more accountability. We are not recommending line authority over Area EEO
Managers through Headquarters staff offices.

The IHS does not concur with our recommendation to implement standardized
performance requirements and evaluation methods for EEO managers, staff and
counselors which are reviewed/conducted by the EEO Director in Headquarters East
and/or the EEO manager in Oklahoma City. It is unclear if IHS disagrees with our
recommendation to implement performance requirements and evaluation methods and/or
the line authority for evaluating performance. In either case, in order to measure EEO
staff improvement, we believe this recommendation is necessary.

The IHS does not concur with our recommendations to establish a counselor selection
criteria and to prohibit managers and personnel staff from becoming counselors. We
believe that regardless of whether objectivity can be maintained, having managers and
personnel staff who are EEO counselors creates an appearance of a conflict of interest.
This is detrimental to the ability of the IHS EEO program to establish an overall sense of
trust and impartiality among IHS employees.

The IHS does not concur with our recommendation to ensure that “EEO settlements are
paid from a central fund, rather than an Area Director’s operating expenses, or otherwise
ensure that an Area Director does not have decision-making authority over the settlement
amount.” We agree with IHS that, “Areas related to each EEO issue should bear the cost
of settling those issues.” However we believe that it creates a conflict of interest to have
the Area Director decide the amount of the award.

The ASMB concurs with the need to improve staff performance. However, they believe
there are other ways of achieving staff supplements beside increased staffing levels and
suggest that IHS consider term appointments, contracting and job sharing etc. We agree
that staff performance can be improved through various mechanisms and would


        EEO AND IHS                      4                                      OEI-05-99-00290
encourage IHS to utilize any and all available to them.

The ASMB does not concur with the recommendation that IHS ensure that EEO
settlements are paid from a central fund, rather than an Area Director’s operation
expenses. While we agree with ASMB that Area Offices should be held accountable, we
stand by our belief that an Area Director’s ability to decide the monetary amount of a
complaint settlement creates a conflict of interest.




        EEO AND IHS                      5                                  OEI-05-99-00290
                          TA B L E                     OF              CONTENTS

                                                                                                                               PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


    Conditions Affecting IHS’ EEO Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


    Inconsistencies in the EEO System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


    Management Direction of EEO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


    Employee Distrust of the EEO System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30


APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32


          IHS Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33 

          ASMB Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41 





                      EEO AND IHS                                  6                                                   OEI-05-99-00290
                            INTRODUCTION

PURPOSE

      To conduct a management review of the Equal Employment Opportunity (EEO)
      complaints process of the Indian Health Service (IHS).


BACKGROUND

      The IHS Director requested that the Inspector General conduct an EEO management
      review including the following issues: timeliness, management practices, delegations of
      authority, conflict of interest, confidentiality, and training of EEO personnel at
      Headquarters and Area Offices.

Legal Responsibility for EEO

      The Assistant Secretary for Management and Budget (ASMB) has departmental
      responsibility to provide technical assistance and policy guidance to the operating divisions
      (OPDIV). The OPDIV EEO offices are responsible for “establishing and maintaining
      EEO programs” and processing EEO complaints. According to 29 CFR 1614.102(a)(1),
      each agency “must provide sufficient resources to its EEO program to ensure efficient and
      successful operation.” The ASMB has primary responsibility for preparing final agency
      decisions on formal EEO complaints.

Timeliness

      The OPDIVS follow a 9-step process (See Appendix) issued by the Equal Employment
      Opportunities Commission (EEOC) to handle individual complaints of discrimination. The
      process outlines complainant, EEO counselor and OPDIV responsibilities and time frames
      to complete requisite steps in resolving an EEO complaint. The specific time frames for
      completing EEO actions are specified in 29 CFR 1614.105(a)ff and are defined for EEO
      staff and counselors in the EEOC’s EEO Management Directive For 29 CFR. Part 1614
      (MD-110).1




      1	
             Subsequent to our field work, EEOC updated MD-110. The new MD-110 issuance endorses the
             principles we cite and provides additional support for some of our recommendations. All
              MD-110 citations shown in this report reflect those in place at the time of our field work.

              EEO AND IHS                         7                                         OEI-05-99-00290
Management Practices

      In early 1999, ASMB released an “EEO Complaints Processing Evaluation Checklist” to
      EEO directors throughout the Department of Health and Human Services (DHHS). This
      checklist serves as a guide for measuring effective management of EEO complaints
      processing and allows OPDIVS and Headquarters staff to evaluate how well they perform
      their EEO complaints functions. The checklist also provides OPDIVS guidance as to
      acceptable counselor selection, training and performance, alternative dispute resolution
      (ADR), and complaint tracking and reporting. In addition, according to 29 CFR
      1614.102(a)(11), each agency must “establish a system for periodically evaluating the
      effect of the agency’s overall EEO effort.”

Delegations of Authority

      According to 29 CFR 1614.607, an agency head may delegate EEO authority to one or
      more designees. In 1997, IHS delegated EEO responsibility for the Albuquerque, Navajo,
      and Oklahoma City Area Offices and Headquarters West to the Oklahoma City Area
      Office. In 1998, IHS further delegated EEO responsibilities for the Nashville Area Office
      to Oklahoma City. Headquarters East retained EEO responsibilities for the Aberdeen,
      Alaska, Bemidji, Billings, Phoenix, Portland, Sacramento, and Tucson Area Offices and
      Headquarters East.

      Each of the twelve Area Directors has the authority to select an EEO Manager and to
      determine whether the position will be designated as a collateral or full-time position.
      Two Area Offices have their own full-time EEO Manager: Phoenix and Alaska2.
      Aberdeen and Bemidji share a full-time EEO Manager. Albuquerque, Headquarters West,
      Nashville, Navajo and Oklahoma City share the full-time EEO Manager in Oklahoma City.
      The Billings, Sacramento and Tucson Area Offices designate the EEO Manager position
      as collateral to their regular duties. Most Area Offices and Service Units have at least one
      EEO counselor on-site who has collateral duties.

Conflict of Interest

      Conflict of interest can occur on EEO complaints when those who make policy or are

      involved in the EEO process improperly insert themselves into the EEO process or fail to

      recuse themselves when they have a personal involvement in the matter. The MD-110

      specifically prohibits several activities:


      C      any management involvement in individual EEO complaints is inappropriate

      C      EEO staff are prohibited from acting as advocates for either party involved in an



      2	
             Alaska did not have a full-time EEO Manager for 8 months. An EEO Manager was appointed 2
             days prior to our visit.

              EEO AND IHS                       8                                       OEI-05-99-00290
             EEO complaint

      C      the EEO complaint process must be kept separate from the personnel function

      C	     internal investigators cannot be used in certain situations (e.g., particularly
             sensitive cases involving high officials).

Confidentiality

      Confidentiality is guaranteed to employees making informal EEO complaints by
      29 CFR 1614.105(g) and MD-110. Both citations require specific authorization by the
      complainant before a counselor can reveal their identity. Otherwise, anonymity for the
      complainant cannot be compromised.

      Confidentiality is no longer promised once a formal EEO complaint is filed.3 If employees
      want to file formal complaints, EEO counselors must advise complainants that their
      complaint file may be shared with those involved in their case who need access to the file.
      The MD-110, VI, C. 4, states those needing access may include the EEO Officer, agency
      EEO officials and those identified as being responsible for actions giving rise to the
      complaint.

Training

      The IHS is required to provide all managers and staff information about EEO policies and
      programs. According to 29 CFR 1614.102(a)(5), agencies must “provide orientation,
      training and advice to managers and supervisors to assure their understanding and
      implementation of the EEO program.” Similarly, 29 CFR 1614.102(b)(4) requires
      agencies to “make written materials available to all employees ... informing them of the
      variety of EEO programs and administrative and judicial remedial procedures available to
      them.”

Alternative Dispute Resolution

      The ADR process intends to resolve EEO complaints through early intervention using an
      impartial outside party to mediate the issues. An EEO counselor should routinely advise
      complainants of the availability of ADR services. If the complainant agrees to ADR
      mediation, a trained mediator will hear the issues involved and work with the involved




      3	
             Technically, informal complaints are “presented” rather than “filed.” For this report, we use
             “filed” when discussing the informal complaint process since that is how respondents described
             the process to us.

              EEO AND IHS                          9                                          OEI-05-99-00290
     parties towards a resolution.4 The law requires agencies to ensure that parties be
     “entitled to participate in the selection of an arbitrator.” The mediator’s communications
     with the involved parties are confidential. If a complaint is resolved through ADR, the
     complainant cannot file an EEO complaint based on the same issue.

     New EEOC rules, effective November 9, 1999, made several ADR changes. Federal
     agencies now must offer ADR at all stages of the EEO process.

Recent EEO Reviews at IHS

     In May 1998, the IHS “1998 Employee EEO Survey”5 found that additional EEO training
     is warranted to reduce “anti-feminist and anti-minority” perceptions and attitudes in the
     IHS workforce. In addition, the types of discrimination most often reported were race (16
     percent), gender (13 percent), and sexual harassment (9 percent). A little over half of the
     respondents (54 percent) indicated they would file an EEO complaint if they felt they had
     been discriminated against and the majority of respondents (69 percent) indicated they
     would not be hesitant to contact someone in EEO for information and or counseling.
     Most respondents felt the EEO program was necessary. Finally, there was considerable
     variation in the respondents’ perception of the degree to which IHS management supports
     the EEO program.

Numbers of EEO Complaints at IHS

     As of May 1999, there are more than 14,000 IHS employees located in 12 Area Offices,
     individual Service Units, Headquarters East (in Washington, D.C.), and Headquarters
     West (in Albuquerque, New Mexico). At the end of fiscal year (FY) 1999, IHS reported
     that EEO counselors handled 220 informal complaints/contacts, a relatively consistent
     number when compared to the previous 3 years.

     If informal EEO counseling does not resolve the matter, aggrieved parties can file a formal
     complaint. In FY 1999, DHHS employees filed 395 formal complaints. The IHS,
     National Institutes of Health (NIH) and Food and Drug Administration (FDA) account for
     nearly 70 percent of the total number of complaints. In FY 1999, IHS employees filed 88



     4	
            The Administrative Dispute Resolution Act of 1996 (P.L. 104-320) says that the mediator should
            be a neutral party and “ may be a permanent or temporary officer or employee of the Federal
            Government or any other individual who is acceptable to the parties to a dispute resolution
            proceeding. A neutral shall have no official, financial, or personal conflict of interest with
            respect to the issues in controversy, unless such interest is fully disclosed in writing to all parties
            and all parties agree that the neutral may serve. A neutral who serves as a conciliator, facilitator,
            or mediator serves at the will of the parties.”
     5	
            This survey was mailed to a stratified random sample of 1,000 IHS employees with a response
            rate of 40%.

             EEO AND IHS                            10                                              OEI-05-99-00290
     formal complaints, the second most complaints filed among the DHHS' OPDIVs.
     Employees of NIH filed 136 formal complaints and FDA employees filed 51.6 At the end
     of FY 1999, IHS had 192 open formal complaints, second only to NIH with 232 open
     formal complaints.

     In FY 1999, IHS employees filed a total of 308 formal and informal EEO complaints.
     Five Areas accounted for 70 percent of IHS’ EEO complaints: Navajo (79), Portland (47),
     Aberdeen (37), Oklahoma (28), Headquarters East (27).

Bases for EEO Complaints

     Under EEO authorities, “organizations must not discriminate against individuals on the
     basis of race, color, sex, religion, national origin, age or handicap.”7 The leading
     categories of discrimination alleged in EEO IHS complaints in FY 1998 were: sex (41),
     age (36), race (28), and national origin (25). Employees also filed 57 complaints alleging
     reprisals were taken against them for filing complaints. The issues most frequently raised
     in the 1998 EEO complaints were harassment, non-sexual (28), EPMS performance
     appraisal (25), promotion (21), and assignment of duties (18).


SCOPE AND METHODOLOGY

     We evaluated the EEO process at Headquarters East and West, all 12 IHS Area Offices,
     and one Service Unit in each Area we visited. We compared the EEO process at the Area
     Offices and both Headquarters to the standards established in EEO laws and regulations
     and to ASMB’s “EEO Complaints Processing Checklist.” We obtained available
     documentation for any of the issues IHS requested we reviewed.

     The sample included both informal and formal EEO complaints. In Headquarters East and
     Oklahoma City, we reviewed 31 formal complaint files closed in the last 2 years. We
     reviewed all of the available informal complaint files closed in the last 2 years at the Area
     Offices and Service Units, a total of 26 complaints.

     In each Area Office, Service Unit and headquarters, we reviewed EEO policies,
     procedures, complainant files, and any other documentation relating to the six issues we
     evaluated. At each office, we spoke with all available EEO staff, counselors and IHS
     employees who had EEO complaints closed in the last 2 years. We also met with Area
     and Service Unit directors, and a purposively selected sample of managers and other staff.
     Using structured discussion guides, we interviewed a total of 223 respondents. A



     6
            The NIH has 16,010 employees; the FDA has 9,500 employees.
     7
            Indian Health Service Circular No. 85, Appendix A, pg. 12

             EEO AND IHS                         11                                  OEI-05-99-00290
breakdown of these respondents follows:

       C      IHS staff with EEO complaints closed after FY 1997 (20)

       C      EEO staff and counselors (31)

       C      EEO managers (10)

       C      Area and Service Unit directors (24)

       C      IHS non-management employees (73)

       C      IHS managers (46)

       C      IHS upper management (2)

       C      Others involved in the EEO process including ASMB, the Investigations

              Manager, the ADR contractor, and Office of General Counsel regional
              attorneys (17)

We did not review any open EEO complaints. We did not compare the IHS’ EEO
program to other Department or Federal EEO programs except for numbers of complaints
filed.

Our review was conducted in accordance with the Quality Standards for Inspections
issued by the President's Council on Integrity and Efficiency.




       EEO AND IHS                    12                                  OEI-05-99-00290
                                     FINDINGS

The IHS operates under four conditions which complicate
the EEO complaints process: Indian Preference,
Commissioned Corps, Tribal Contracting/Compacting, and
Downsizing
      The IHS’ unique health care delivery system brings services to many diverse communities.
      Health care professionals and support staff from native populations, Commissioned Corps
      officers and others work together to serve Indian health care needs. Laws governing the
      rights of tribes and Indians sometimes create misconceptions regarding the rights and
      responsibilities among these groups.

      During our on-site visits, we observed several situations pertaining to the EEO program
      caused by these misunderstandings. These misunderstandings can lead to missed deadlines
      for filing and/or acting on complaints, wasted time and efforts for EEO staff and
      counselors, ill feelings among staff, workplace disruption and loss of productivity.

Complaints involving the Indian Preference Law are being handled
inappropriately through the EEO process

      In our discussions with respondents and observations we made during our site visits, we
      found that IHS employees are confused about the Indian Preference Law which provides a
      legal basis for preferential treatment to qualified Indian applicants and employees.8 Some
      non-Indian employees do not realize that Indian preference extends beyond hiring and
      applies to personnel actions (e.g., promotions). These employees felt they were
      consistently discriminated against throughout their careers. The EEO remedies do not
      apply to employees who believe they are treated unfairly primarily as a result of Indian
      preference being applied. In these complaints, employees should file a personnel grievance
      or use any other grievance procedure negotiated with a recognized labor organization.9 In
      a few complaints we reviewed, we noticed that EEO counselors handling complaints
      involving Indian preference as the primary issue and erroneously treating them as EEO
      matters based on race.




      8
             Civil Rights Act of 1964, Title VII, Section 703(i)
      9
             Indian Health Service Circular No. 87-2.

              EEO AND IHS                           13                             OEI-05-99-00290
Commissioned Corps EEO rules are still not understood in IHS, which may cause
delays in resolving these EEO complaints

      Recent changes in handling EEO complaints from Commissioned Corps officers created
      confusion among EEO staff and counselors.10 The DHHS Personnel Instruction issued in
      August 1999 stipulates that Commissioned Corps officers must now file EEO complaints
      through the Commissioned Corps EEO process.11 However, from October 1996 to
      October 1998, Commissioned Corps officers followed the IHS EEO procedure. Many
      EEO staff and counselors were unsure how to handle these EEO complaints from October
      1996 to August 1999 when new procedures for the Commissioned Corps went into effect.
      Some IHS staff do not understand they have, and have always had, the right to file an
      EEO complaint against a Commissioned Corps officer.

      Even though Commissioned Corps officers are now directed to use their own EEO
      process under the new procedures, IHS EEO counselors play a role in handling these
      complaints. Commissioned Corps officers who wish informal resolution of their
      complaints may either seek informal counseling through the IHS EEO office or may seek
      informal resolution through the Commissioned Corps’ administrative chain.12 Despite
      these changes, some IHS employees believe that Commissioned Corps officers are not
      entitled to use IHS’ EEO complaint processes.

Employees’ rights to EEO under tribal contracting/compacting have not been
legally determined, potentially limiting employees’ access to the EEO process

      The IHS actions to turn over the operation of IHS facilities to Indian tribes created
      additional disparities in treating EEO complaints. The Indian Self-Determination and
      Education Assistance Act affords tribes the option to administer and operate IHS health
      services and programs in their communities, or remain in the IHS direct health system.13
      When tribes assume operations of these facilities, IHS employees working there become
      contracted Federal employees of the tribe. The right of contracted Federal employees to
      access IHS EEO has not been legally determined. Headquarters East EEO believes that
      contracted employees are not covered, while other IHS managers and regional attorneys
      feel that these employees have a legal claim to IHS EEO services. The Alaska Area Office
      makes EEO services available to employees under tribal management while other Area
      EEO offices do not.




      10
             Nearly one of seven IHS employees is a Commissioned Corps officer.

      11
             The Commissioned Corps Personnel Manual Regulation CC46.1, p. 2

      12
             Ibid., p. 7

      13
             Public Law 93-638, as amended


             EEO AND IHS                         14                                OEI-05-99-00290
Downsizing restricted access to EEO services in some areas

      Although IHS’ workforce has remained relatively constant since 1993, there has been a
      reduction in the numbers of staff at Headquarters and Area Offices by more than 50
      percent. As noted in the background, the level of EEO complaints has remained relatively
      constant, but there are now fewer EEO staff and counselors available to handle these
      complaints. In looking for ways to consolidate positions during downsizing, IHS’ upper
      management allowed Area Offices to determine what duties would remain. Consequently,
      each Area Office could determine how to staff the EEO position. Two Area Offices
      employ a full-time EEO manager while three Area Offices staff the position as a collateral
      duty. Six Area Offices and Headquarters West share the services of an EEO manager.



Inconsistencies in the EEO system result in unequal
treatment of complaints
      Significant differences in the structure and approaches to handling complaints result from
      IHS’ dividing EEO responsibilities between Headquarters East and Oklahoma City and
      from Area Directors making their own EEO staffing decisions. All Area Offices reporting
      to Headquarters East use an Area EEO manager and contracted investigators for all
      formal EEO complaints. In contrast, Area Offices under Oklahoma City use the
      Oklahoma City EEO manager to manage their EEO process. Instead of a full-time EEO
      manager, areas under Oklahoma City have either individual EEO counselors or employee
      relations specialists who serve as local EEO contacts. In addition, these offices primarily
      use an EEO specialist in Oklahoma City to investigate formal complaints

Acceptance of EEO complaints varies

      Based on our interviews and complaint reviews, there appears to be considerable
      differences regarding the acceptance of formal EEO complaints between Headquarters
      East and Oklahoma City. Oklahoma City routinely rejects complaints for timeliness or
      other procedural reasons, while Headquarters East sometimes accepts complaints that do
      not always meet these standards. Several IHS managers and regional attorneys
      volunteered that Headquarters East readily accepts complaints that do not have an EEO
      basis for complaint.

      Throughout IHS, many EEO staff and counselors’ understanding differs about what
      constitutes a basis for an EEO complaint. Several regional attorneys believe that many
      EEO complaints are accepted that have no “legal merit.” Area Offices differ in the way
      sexual harassment issues are handled as well. One Area Office treats sexual harassment




              EEO AND IHS                     15                                     OEI-05-99-00290
      as a conduct issue, rather than an EEO issue.14 Consequently, unlike sexual harassment
      complainants in other IHS sites, complainants in this area have no EEO redress for their
      complaints.

Little alternative dispute resolution is being used to resolve EEO complaints

      We found little evidence of ADR being practiced. The DHHS urges its OPDIVS to
      institute ADR processes aimed at resolving issues at the lowest possible level to avoid
      protracted and expensive litigation. To provide mediation services during the informal
      complaint process, IHS contracts with the Departmental Appeal Board Mediation
      Program (DABMP). In FY 1999, DABMP mediated 9 IHS complaints, a decrease from
      12 complaints the prior year and used $22,500 of the $65,000 allotted for travel to
      provide mediation services for IHS employees.

      The Phoenix Area Office employs a EEO complaint resolution process not used in other
      Area Offices or Service Units. There, the EEO counselor meets with complainants to
      determine if a valid EEO issue exists or if another type of grievance should be filed. If the
      counselor decides an EEO issue exists, the complaint is presented to a five-member
      management committee to determine what steps should be taken. If complainants are not
      satisfied with the results, they can file formal EEO complaints. While this model has been
      touted by Headquarters East to be an ADR model, this process does not follow
      conventional ADR principles and improperly involves management in the process.15

Timeliness cannot be accurately determined due to the inconsistency and
unavailability of records

      We were able to review some closed formal complaint files. In these cases, the dates
      recorded in the files indicated the cases were handled in a timely manner. However,
      several respondents reported instances where there were delays in processing their
      informal EEO complaints. One complaint we reviewed showed that an EEO manager did
      not respond to an initial complaint made via e-mail until the complainant followed up
      months later. Respondents had considerably more negative comments concerning timely
      actions and resolution on formal complaints than on informal complaints.




      14
             According to Section 703, Title VII of the Civil Rights Act of 1964, as amended, sexual
             harassment is a form of discrimination for which an EEO complaint can be filed.
      15	
             Recent EEOC guidance explains that involving supervisors in the mediation process may lead
             employees to “feel that officials within the chain of command will more readily believe the
             supervisor’s version of events.” In the case of Cheng-Canindin v. Renaissance Hotel Associates,
             et.al., the California Supreme Court held that a review panel consisting of managers and chosen
             without input from a complainant is “inherently slanted in management’s direction.” (98 Daily
             Journal D.A.R. 13193)

              EEO AND IHS                         16                                          OEI-05-99-00290
      The lack of uniformity in documentation and record retention on informal cases by EEO
      counselors is problematic. We attempted to review informal complaint files at Area
      Offices or Service Units. Files were unavailable in some sites and we could not always
      determine the timeliness or appropriateness of actions taken on complaints we reviewed.

      Collateral duties affect EEO counselors’ ability to complete their actions in a timely
      manner. Nearly all EEO counselors we spoke with have collateral duties. As a result,
      their EEO responsibilities are secondary to their primary jobs. Collateral duties add to the
      difficulty in coordinating meetings with complainants and supervisors. All parties involved
      may have different leave, travel or work schedules which can contribute to problems in
      meeting the mandated deadlines to respond to EEO complaints.

Complaint reporting system is flawed

      The ASMB guidance to OPDIVS calls for a tracking system to help manage the

      complaints process. At a minimum, the system should be able to “track and report ... case

      status, prevent cases from getting lost, allow any staff member to find cases to provide

      quick and accurate status reports, and identify problems or potential problems in work

      flow.”


      The IHS listing of which EEO complaints are open or closed is inaccurate. In our

      attempts to review closed formal complaint files in Headquarters East and Oklahoma City,

      we found that nearly one-third of the “closed” complaints we tried to review from that

      listing were still open.


      The EEO Area Offices maintain and track informal EEO complaints in different ways. 

      The EEO counselors usually report to their EEO manager both when they receive an

      informal complaint and when they complete their fact-finding. But, when a complaint

      proceeds to the formal stages, Headquarters East does not routinely advise EEO managers

      in the Area Offices. Similarly, the Oklahoma City EEO manager does not inform

      counselors that a complaint has been accepted or rejected as a formal EEO complaint or

      provide updates of the complaint status or final outcome.


      The lack of a uniform reporting and tracking system also results in notification problems

      for EEO complainants and others. Very often, complainants do not know the status of

      their complaints and may not hear how their complaints are resolved.16 If not informed of

      the outcome of their informal complaints, complainants do not know whether or when

      they may file a formal EEO complaint. Those charged with discrimination may also be

      unaware of the complaint outcome. At the formal stages, not informing involved parties



      16	
             In one site we visited, the human resource person who handles informal EEO complaints advised
             that she tells complainants they may never hear how their complaint is resolved. A complainant
             verified this process during our interview.

              EEO AND IHS                         17                                         OEI-05-99-00290
     of the status of their complaint can have repercussions involving filing appeals and the
     continued disruption to the workplace environment. At present, MD-110 does not require
     this notification.



The IHS EEO program lacks direction, potentially weakening
its effectiveness

IHS management has no systematic oversight of EEO staff or counselors

     The IHS EEO managers have no systematic way of knowing whether their staff or
     counselors act appropriately on individual informal or formal complaints. Only two Area
     Office EEO managers exercise direct oversight of their counselors’ EEO activities. They
     provide regular guidance for EEO policies and procedures, opportunities for training,
     monitor progress on individual complaints, and remind counselors of processing deadlines.
     Neither Headquarters East nor the Oklahoma City EEO manager directly supervise EEO
     activities occurring in Area Offices or Service Units.

     This lack of supervisory control allows counselors to unknowingly make incorrect
     decisions or conduct themselves in an unprofessional manner. Some respondents said that
     some EEO counselors see themselves as either advocates or investigators, instead of
     impartial fact-gatherers. A regional attorney pointed out that EEO counselors should not
     be making findings of discrimination. Such improper actions make it very difficult, if not
     impossible, for DHHS to defend itself and may cost the agency considerable funds in
     settlements. Several complainants said that during the course of settling their complaints,
     EEO staff raised their voices at them, trying to threaten or intimidate them.

     The lack of IHS management direction over EEO counselor selection results in an
     imbalance of counselor coverage throughout IHS. Not all Area Offices or Service Units
     have EEO counselors. While ASMB guidance to OPDIVS states that “procedures should
     be in place to replace counselors as needed,” IHS does not use a consistent method or
     particular protocol or criteria to select EEO counselors, nor specify the time allowed for
     EEO activities.

     Due to IHS’ decentralization, Area Directors and some Service Unit Directors now
     exercise considerable influence over EEO activities. They hire EEO managers, counselors
     and support staff, approve training and travel and allocate physical space for EEO staff
     and counselors. In some instances the Area Director or Service Unit Director appoints
     staff members to include EEO counseling as collateral to their regular duties. In




             EEO AND IHS                     18                                     OEI-05-99-00290
      other sites, counselors volunteer or are elected to assume EEO duties in addition to their
      regular jobs.

      Some respondents feel that IHS management does not provide sufficient technical
      direction to EEO staff and counselors. A Headquarters East EEO respondent said their
      office does not provide unsolicited guidance to the field. Some respondents indicated that
      the EEO system does not respond to their technical needs and that there is a
      communications gap between EEO management and Area staff. Many Area Office and
      Service Unit EEO staff and counselors have infrequent contact with the EEO director in
      Headquarters East or the EEO manager in Oklahoma City.

      We found no evidence of any periodic self-evaluation by IHS of its own EEO process,
      although ASMB recently provided all OPDIVS with an EEO self-evaluation tool.
      Although IHS sampled some employees’ opinions in the “1998 Employee EEO Survey,”
      they did not disseminate the survey results to EEO staff and counselors, or to other IHS
      managers and staff.

Management involvement in individual EEO complaints is a conflict of interest
and raises questions about EEO’s impartiality

      The delegation of authority to Area Directors for EEO gave Area Directors line authority
      over EEO staff in their offices. In many cases, EEO staff, counselors, or others involved
      with EEO informal complaints routinely provide specific complaint information to the
      Area or Service Unit Director. In one file we reviewed, the EEO manager informed the
      Service Unit Director by letter of the status of the informal complaint. In some Areas, the
      EEO manager, or in one case, a personnel specialist who tracks EEO complaints for the
      Area, routinely meets with the Area Director to provide detailed individual updates on
      formal and informal complaints. The delegation of authority regarding EEO matters from
      IHS Headquarters to its Area Directors cannot encompass this extent of involvement on
      individual cases and is prohibited by 29 CFR 1614.105(g).

      Many IHS employees, both staff and management, told us they feel that the EEO staff and
      process are biased. Area Directors must approve any EEO settlement of complaints
      involving managers in their Area, unless a settlement amount exceeds $10,000. Some
      respondents expressed the feeling that since any monetary settlement on these EEO
      complaints must be paid from Area Director’s operating funds, it may be difficult for the
      Area Director to be objective in these cases.

      Some respondents expressed concern that EEO counselors do not understand conflict of
      interest or how to handle an EEO complaint when conflict of interest is an issue. As
      mentioned above, some EEO staff and counselors see themselves as advocates for either
      complainants or management. According to MD-110, “EEO counselors, EEO officers,
      and EEO managers cannot serve as representatives for complainants or for agencies in


              EEO AND IHS                     19                                     OEI-05-99-00290
      connection with the processing of discrimination complaints” as it is “inconsistent with
      their neutral roles.” Appearances of conflict of interest, even if inaccurate, raise questions
      about EEO’s impartiality.17 Two-thirds of the IHS respondents and 43 percent of the
      EEO staff and counselors said they are unfamiliar with the policy on conflict of interest.

      Personnel’s involvement with EEO is improper.

      Despite MD-110, which stipulates that the EEO process be separate from personnel
      functions, we found IHS’ personnel office staff directly involved in the handling of EEO
      complaints in several Area Offices. Conflicts of interest between personnel and EEO exist
      because many EEO complaints arise out of personnel actions. Most EEO counselors and
      managers are unaware that these types of conflict of interest represent a potential problem
      in handling EEO complaints. In some cases, personnel staff investigate EEO complaints.

      Use of an in-house investigator appears to be a conflict of interest.

      According to MD-110, an EEO investigator should not occupy a position in the agency
      that is “directly or indirectly under the jurisdiction of the head of that part of the agency in
      which the complaint arose.” This language may prohibit the EEO specialist from
      investigating complaints in the Oklahoma Area, all areas using Oklahoma City EEO
      services, and/or those naming the Area Director(s) in the complaint. Oklahoma City’s use
      of an EEO specialist to investigate formal EEO complaints may represent a conflict of
      interest and an inability to “maintain the appearance of being unbiased.”18

EEO staff and counselors feel they need additional training to effectively perform
their jobs

      More than half of the EEO staff and counselors (57 percent) believe that they need
      intermediate level or refresher training to advance or maintain their skills. Nearly half of
      the EEO counselors (49 percent) said that they had not received any training in several
      years. One Service Unit EEO counselor said that he had to convince his supervisor to pay
      for EEO training out of their department’s training funds, since there was no EEO money
      available for training. This long-time counselor is resigning from his counselor duties, in
      part because of IHS’ failure to provide additional training.

      The ASMB guidance to OPDIVs indicates that agencies should review the adequacy of




      17	
              In Ceriale v. Amco Insurance Company, the California Supreme Court vacated an arbitrator’s
              decision, based in part on their consideration of “whether the record reveals facts which might
              create an impression of possible bias.” (96 Daily Journal D.A.R. 9847)
      18
              Management Directive-110, 5-5 C.

              EEO AND IHS                           20                                           OEI-05-99-00290
      training provided to counselors and to provide refresher training if it is needed. The IHS
      does not mandate training for its counselors beyond the basic EEO counselor training.
      The IHS does not require its EEO counselors to receive a core of training classes, nor to
      periodically test to certify their competency. Some counselors are unsure of handling
      certain issues. Counselors identified the following training needs: sexual harassment
      complaints, personnel issues, formal complaints, report writing, EEO law, mediation,
      ADR dispute resolution, the non-EEO grievance processes, and the bases for complaints
      handled by EEOC.

      Coordinating training is sometimes difficult for EEO counselors with collateral duties. For
      many Service Unit counselors involved in direct patient care, finding both time to attend
      training and someone to perform their collateral duties becomes problematic. Further,
      supervisors may be hesitant to grant them time away from their primary responsibilities to
      attend training and fulfill their EEO duties.

      Many IHS non-supervisory staff do not receive EEO training. Counselors indicated that
      they are frequently faced with personnel grievance or working condition complaints from
      staff that do not qualify as a basis for an EEO complaint. Many of the respondents we
      spoke with were unaware who their EEO counselors are,19 what actions might constitute
      an EEO violation, or what their EEO rights are. Much of the EEO training is restricted to
      management staff. Although managers may be required to attend these sessions, their
      work schedules may interfere with their ability to attend scheduled EEO training.



Employee distrust of EEO is widespread throughout IHS and
undermines its effectiveness
Confidentiality is compromised

      Some Area and Service Unit Directors require identifying details from EEO managers or
      counselors when informal EEO complaints are filed. This violates EEO rules of
      confidentiality. Area and Service Unit Directors may wish to be informed when their
      managers may have stepped out of line or want to protect the complainant against
      reprisals. However well-intentioned, unless the complainant has waived their right of
      confidentiality, this notification is improper.20 The IHS also violates EEO complainant
      confidentiality in its sexual harassment “zero tolerance” policy. This policy requires that
      Area Directors, Service Unit Directors and EEO managers are to be notified of specific
      complaint details when an informal sexual harassment EEO complaint is filed.


      19	
             The ASMB guidance to OPDIVS suggests one way to measure effectiveness is to determine if
             EEO counselors’ names and telephone numbers are publicized to employees.
      20
             MD-110, Attachment A, Section A.1.a., pp 2-27.

              EEO AND IHS                        21                                        OEI-05-99-00290
      Many respondents do not understand the EEO confidentiality standards. Although many
      respondents said that complainants and supervisors named in a complaint most often
      violate confidentiality on their complaint, several respondents said that EEO counselors
      and staff also violate these standards. Some respondents volunteered that they would not
      file an EEO complaint because of a perceived lack of confidentiality.

Employees fear reprisals

      The EEOC advises Federal agencies must make “assurances that employees who make
      complaints of harassment or provide information related to such complaints will be
      protected against retaliation.”21

      Many IHS employees we spoke with feel that filing an EEO complaint will result in a
      reprisal by management. Employees fear being ostracized, and or stigmatized as
      troublemakers. Some employees report they are too intimidated to pursue EEO
      complaints.

      Nearly two-thirds of our respondents (62 percent), including some supervisory staff,
      indicated that they would not feel comfortable filing an EEO complaint, a considerably
      higher number than indicated in IHS’ 1998 Employee EEO Survey. Some respondents are
      fearful of approaching EEO counselors with questions and of being seen going to the EEO
      office. In response to this concern, Alaska Area Office management moved the EEO
      office to a floor separate from management. One complainant, alluding to potential
      reprisals, pointed out that reading material on EEO complaint filing that is posted on a
      hallway bulletin board may not be the best way for employees to learn about the process.

Employees believe that EEO and management are enmeshed

      Some employees feel that management plays too great a role in the EEO program and that
      it is a tool of management. Others fear that the EEO counselor or EEO manager acts as a
      go-between to management. Others articulated their perception that management usually
      wins EEO complaints. Some respondents believe that the goal of IHS EEO is to defend
      the agency.

      Further, some employees fear that their confidentiality might be compromised due to
      management’s role in the EEO process. In a few instances, IHS managers function in the
      capacity of an EEO counselor. A manager’s participation in this process and knowledge
      of a complainant’s identity establishes a potential avenue for reprisal or a means to inhibit
      the process on behalf of management.



      21	
             EEOC guidance, June 18,1999 sets out standards of liabilities for employers for unlawful
             harassment by supervisors.

              EEO AND IHS                          22                                          OEI-05-99-00290
A few respondents indicated that they would pursue their EEO complaints elsewhere or
take it to a higher level rather than at the Service Unit, because they did not believe they
would get needed support. In some cases, management prevented employees from seeing
the EEO manager or counselor. One manager required that an employee provide a week’s
notice before approving time for the employee to see an EEO counselor.

The IHS upper management plays little role in ensuring that EEO program goals are
communicated and accomplished. One Headquarters East manager indicated that most
IHS managers support EEO, but because IHS is highly decentralized, upper management
needs to get the EEO message to all managers and staff. The bulk of the employees are at
the Service Unit and any IHS message of EEO support does not get to the field offices.




        EEO AND IHS                     23                                     OEI-05-99-00290
                    R E C O M M E N D AT I O N S

      The IHS EEO system functions with little oversight and direct guidance on implementing
      and executing EEO policies and procedures. The structure and management of IHS’ EEO
      program contribute to problems concerning confidentiality, conflict of interest, reprisals
      and management’s involvement in the EEO process. Problems include a lack of
      management direction and oversight, inconsistent and inaccurate reporting system,
      minimal communication, and inadequate training. In addition, most IHS staff is unaware
      of IHS’ upper management support of and commitment to EEO principles.

      Many respondents conveyed a lack of confidence in the EEO program. They are
      intimidated and hesitant to use the system intended to protect their employment rights.
      Employees’ perceptions about the process, confidentiality and impartiality are vital to
      sustaining a credible, viable EEO program. Employees must feel they can pursue a
      complaint with the confidence that it will be handled fairly, timely and confidentially by a
      well-trained EEO counselor, and that no adverse actions will be taken against them.
      Without overcoming widely-held perceptions of distrust, IHS’ EEO program cannot
      succeed.

      In order to have a more consistent, unified EEO program and complaints processing
      system which addresses the difficulties outlined above, we recommend that IHS:

Address IHS-specific issues pertaining to Indian preference, commissioned
corps, tribal compacting/contracting and downsizing

      C	     Issue a memo to all employees explaining the differences between Indian
             Preference and discriminatory practices
      C	     Issue a memo to all employees detailing the process for Commissioned Corps
             employees to file a compliant and the right to lodge complaints against
             Commissioned Corps employees
      C	     Obtain legal advice from the Office of the General Counsel and a definitive ruling
             on the status of employees working under a Memorandum of Agreement with
             Tribal Organizations and their EEO rights
      C	     In consultation with ASMB, and based on comparisons with other Federal and
             Departmental agencies, provide firm guidance on the ratio of EEO counselors to
             staff, ensure that these counselors are hired and trained and that they are replaced
             timely when vacancies occur




              EEO AND IHS                      24                                      OEI-05-99-00290
Standardize the handling of EEO complaints

      C     Clarify and codify the roles and responsibilities of Headquarters East and
            Oklahoma City to their areas and each other
      C     Provide upper management supervision to both the EEO Director in Headquarters
            East and the EEO manager in Oklahoma city
      C	    Communicate and convey in a clear manner the bases for EEO complaints, the
            process to pursue complaints, and how to handle all issues including timeliness,
            confidentiality, and conflict of interest to all EEO staff and counselors
      C     Develop a specific ADR policy and process that is made available to all employees

Improve counselor performance and supervision

      C     Increase EEO staffing levels, requirements and support to include at a minimum:
            <       A full-time EEO manager in each Area Office, reporting to Headquarters
                    East or Oklahoma City
            <       A full-time EEO counselor in each Area Office and/or a full-time counselor
                    who serves the entire Area or more than one Service Unit
      C	    Implement performance requirements and a standardized method for evaluating
            counselor performance for EEO managers, staff and counselors which are
            reviewed/conducted by the EEO Director in Headquarters East and/or the EEO
            manager in Oklahoma City
      C	    Establish counselor selection criteria — managers and personnel staff should not
            be counselors

Standardize Complaint Reporting, Recording, and File Retention

      C     Standardize EEO policies and procedures for maintaining complaint data
            throughout EEO including an update of the 1985 EEO Policy Circular
      C     Create a standardized system so Headquarters and EEO field staff can track
            complaint status and generate reports

Implement policy guidance on confidentiality

      C     Provide guidance on the role of Area and Service Unit directors in both the
            informal and formal stages and in sexual harassment cases
      C     Provide guidelines on the maintenance of counselors’ informal notes




            EEO AND IHS                     25                                    OEI-05-99-00290
Improve management oversight and accountability

      C	     Use ASMB’s self-evaluation tool to help ensure the effective management of EEO
             complaints processing
      C	     Establish both short-term and long-term EEO goals and objectives to restore
             confidence in the EEO process by:
             <       mounting a national initiative that demonstrates IHS commitment to
                     providing a discrimination-free workplace, where EEO matters can get
                     quickly and fairly resolved
             <       publicizing the availability of counseling services and training
             <       regularly evaluating EEO goals and objectives
      C	     Provide sufficient staff in Headquarters East and Oklahoma City to carry out the
             recommendations contained in this report

Eliminate conflicts of interest and the potential for conflicts of interest

      C	     Seek legal advice about the extent of EEO investigations allowed to be performed
             by an EEO specialist
      C	     Ensure that EEO settlements are paid from a central fund, rather than an Area
             Director’s operating expenses, or otherwise ensure that an Area Director does not
             have decision-making authority over the settlement amount

Improve communication and expand EEO training and educational opportunities
to all IHS employees, EEO staff and counselors including

      C      Conduct a annual national meeting for EEO staff and counselors

      C      Conduct regular area-wide regional meetings for EEO staff and counselors

      C      The EEO manager in Oklahoma City, the EEO Director and Headquarters EEO

             staff should regularly visit all Area Offices
      C	     The EEO manager in Oklahoma City, the EEO Director and Headquarters EEO
             staff should regularly communicate with Area Office EEO staff and counselors
             through e-mail, bulletins and training
      C      The EEO staff and counselors in Area Offices and Service Units should hold
             regularly scheduled information sessions, and updates to staff
      C      Assemble a comprehensive reference book for EEO counselors with information
             specific to IHS EEO concerns
      C      Establish an IHS-wide EEO web site
      C      Conduct training focusing on the bases for complaints and an explanation of the
             EEO process
      C      Establish a counselor training curriculum
      C      Conduct training to counselors at regular interval
      C      Conduct training that includes complaint prevention activities



              EEO AND IHS                    26                                   OEI-05-99-00290
      C	     Offer interactive training for supervisors unable to attend in person because of
             work requirements or leave

Increase employee trust in the EEO process

      C      Management must demonstrate through both words and actions a “zero tolerance”
             for reprisals
      C      Increase and make more visible upper management’s commitment and support of
             the EEO program


      In order to ensure proper oversight and accountability, we also recommend that ASMB’s
      Office of Human Resources EEO Programs Group provide technical assistance and
      guidance, as well as regular evaluations of IHS’ progress towards meeting their EEO
      goals and objectives. We recommend that:

The ASMB EEO programs group should complete a 1 year follow-up evaluation
on the implementation of the OIG recommendations and perform subsequent
annual reviews




             EEO AND IHS                      27                                     OEI-05-99-00290
             AGENCY                    COMMENTS

We received comments on the draft report from the Indian Health Service (IHS) and the
Assistant Secretary for Management and Budget (ASMB). Both concur with the vast
majority of our 10 recommendations and the 34 ways of achieving them. Where
appropriate, we changed the report to reflect their comments. The full IHS and ASMB
comments are contained in Appendix B.

The IHS believes our recommendations “will provide opportunities for much needed
improvement in the administration and management of the IHS EEO program.” The
IHS’ actions to date include development of an EEO website, a Fact Sheet explaining
differences between Indian Preference and Title VII discriminatory practices, and new
EEO posters. We appreciate the cooperation of IHS in conducting this inspection and
look forward to working with IHS in the development of their action plan in response to
our recommendations.

Of the 34 ways of achieving the recommendations, IHS did not concur with the following
four:

The IHS does not concur with elevating EEO supervisory responsibilities to IHS
Headquarters. The IHS responded that they were unclear about the recommended
organizational location of upper management. To clarify, we are recommending that an
IHS upper manager at Headquarters provide management supervision (line authority) to
both the EEO Director in Headquarters East and the EEO manager in Oklahoma City to
provide more accountability. We are not recommending line authority over Area EEO
Managers through Headquarters staff offices.

The IHS does not concur with our recommendation to implement standardized
performance requirements and evaluation methods for EEO managers, staff and
counselors which are reviewed/conducted by the EEO Director in Headquarters East
and/or the EEO manager in Oklahoma City. It is unclear if IHS disagrees with our
recommendation to implement performance requirements and evaluation methods and/or
the line authority for evaluating performance. In either case, in order to measure EEO
staff improvement, we believe this recommendation is necessary.

The IHS does not concur with our recommendations to establish a counselor selection
criteria and to prohibit managers and personnel staff from becoming counselors. We
believe that regardless of whether objectivity can be maintained, having managers and
personnel staff who are EEO counselors creates an appearance of a conflict of interest.
This is detrimental to the ability of the IHS EEO program to establish an overall sense of



        EEO AND IHS                     28                                     OEI-05-99-00290
trust and impartiality among IHS employees.

The IHS does not concur with our recommendation to ensure that “EEO settlements are
paid from a central fund, rather than an Area Director’s operating expenses, or otherwise
ensure that an Area Director does not have decision-making authority over the settlement
amount.” We agree with IHS that, “Areas related to each EEO issue should bear the cost
of settling those issues.” However we believe that it creates a conflict of interest to have
the Area Director decide the amount of the award.

The ASMB concurs with the need to improve staff performance. However, they believe
there are other ways of achieving staff supplements beside increased staffing levels and
suggest that IHS consider term appointments, contracting and job sharing etc. We agree
that staff performance can be improved through various mechanisms and would encourage
IHS to utilize any and all available to them.

The ASMB does not concur with the recommendation that IHS ensure that EEO
settlements are paid from a central fund, rather than an Area Director’s operation
expenses. While we agree with ASMB that Area Offices should be held accountable, we
stand by our belief that an Area Director’s ability to decide the monetary amount of a
complaint settlement creates a conflict of interest.




        EEO AND IHS                      29                                     OEI-05-99-00290
                   APPENDIX A




EEO AND IHS   30       OEI-05-99-00290
EEO AND IHS   31   OEI-05-99-00290
                   APPENDIX B




EEO AND IHS   32       OEI-05-99-00290
EEO AND IHS   33   OEI-05-99-00290
EEO AND IHS   34   OEI-05-99-00290
EEO AND IHS   35   OEI-05-99-00290
EEO AND IHS   36   OEI-05-99-00290
EEO AND IHS   37   OEI-05-99-00290
EEO AND IHS   38   OEI-05-99-00290
EEO AND IHS   39   OEI-05-99-00290
EEO AND IHS   40   OEI-05-99-00290
EEO AND IHS   41   OEI-05-99-00290
EEO AND IHS   42   OEI-05-99-00290
